No.
/

In The Supreme Court of the United States
Lonnie Kade Welsh
Vs.
The State of Texas

Certificate of Service
I Lonnie Kade Welsh do hereby declare under penalty of perjury that a true and correct copy has been
served on the State of Texas by placing the same with the United States Postal Service postage pre-paid
on 22nd of June 2020 to:

Ken Paxton
Attorney General of Texas
Attemoy for the Respomdent

P.O.Box i&5yjjr'

Ac^ixntn/i

Respectfully Submitted^
Lonnie Kade Welsh #6516607
22600 South Sunset Blvd.
Littlefield, TX 79339

